<html>
<title> - NOMINATION HEARING FOR KRISTEN KULINOWSKI TO BE A MEMBER OF THE CHEMICAL SAFETY BOARD AND GREG NADEAU TO BE ADMINISTRATOR OF THE FEDERAL HIGHWAY ADMINISTRATION</title>
<body><pre>[Senate Hearing 114-54]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 114-54

    NOMINATION HEARING FOR KRISTEN KULINOWSKI TO BE A MEMBER OF THE 
   CHEMICAL SAFETY BOARD AND GREG NADEAU TO BE ADMINISTRATOR OF THE 
                     FEDERAL HIGHWAY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://www.gpo.gov/fdsys
                              __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-734 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001








               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director











                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 15, 2015
                           OPENING STATEMENTS

Collins, Hon. Susan M., U.S. Senator from the State of Maine.....     1
King, Hon. Angus S., Jr., U.S. Senator from the State of Maine...     2
Markey, Hon. Edward J., U.S. Senator from the State of 
  Massachusetts..................................................     3
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Boxer, Hon. Barbara, U.S. Senator from the State of California...     6

                               WITNESSES

Nadeau, Greg, nominated to be Administrator of the Federal 
  Highway Administration.........................................     8
    Prepared statement...........................................    11

Kulinowski, Kristen, nominated to be a member of the Chemical 
  Safety Board...................................................    17
    Prepared statement...........................................    20
    Responses to additional questions from Senator Inhofe........    24

 
    NOMINATION HEARING FOR KRISTEN KULINOWSKI TO BE A MEMBER OF THE 
   CHEMICAL SAFETY BOARD AND GREG NADEAU TO BE ADMINISTRATOR OF THE 
                     FEDERAL HIGHWAY ADMINISTRATION

                              ----------                              


                        WEDNESDAY, JULY 15, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Dirksen Senate Building, Hon. James Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Capito, Boozman, Fischer, Rounds, 
Carper, Gillibrand, and Markey.
    Senator Inhofe. Consistent with our policy of starting on 
time, we are going to start on time, Senator Collins.
    I know that Senator King is going to be coming to join you 
in the introduction, but since he is not here, we will start 
with you, if you would proceed.

          OPENING STATEMENT OF HON. SUSAN M. COLLINS, 
              U.S. SENATOR FROM THE STATE OF MAINE

    Senator Collins. Thank you very much, Mr. Chairman and 
Ranking Member Boxer, for convening this hearing on the 
nomination of Greg Nadeau to be the Administrator of the 
Federal Highway Administration at the U.S. Department of 
Transportation.
    I am truly honored to speak before this committee in strong 
support of Mr. Nadeau's nomination. He is a Maine native. That 
gives him great credibility in my eyes to start and perhaps 
more important to this committee, he truly is a transportation 
expert.
    He is also a former member of the Maine State Legislature 
and he was an advisor to two of Maine's Governors, John 
Baldacci and my colleague, Angus King.
    I have known Greg for many years and have worked closely 
with him on many important transportation issues. As Angus will 
describe in greater detail, Greg has a long record of public 
service and experience in transportation policy, including 
serving very ably as the Deputy Administrator of the Federal 
Highway Administration since 2009.
    The President's nomination of Greg is a well earned 
recognition of his expertise in highway policy and his 
effectiveness as a manager of people and programs.
    As Chairman of the Transportation Appropriations 
Subcommittee, I have enjoyed working closely with Greg and I 
look forward to the opportunity to continue this relationship 
if he is confirmed to serve as the Administrator.
    Greg's nomination comes at a critical time for FHA, the 
transportation industry and the traveling public. As this 
committee is well aware, the Highway Trust Fund faces yet 
another shortfall at the end of this month.
    A lapse in Federal funding, particularly at a time when 
most States are at the peak construction season, would be 
disastrous for local economies throughout the Nation. I want to 
salute the leaders of this committee for your hard work in 
unanimously crafting and passing a bill to reauthorize our 
surface transportation programs for the next 6 years.
    As Greg's nomination process moves forward, I want to tell 
the committee that I cannot think of a better person to lead 
the Federal Highway Administration in its ongoing stewardship 
of the construction, maintenance and preservation of our 
Nation's highways, bridges and tunnels. He is a remarkable 
leader, a man of integrity and an expert in transportation 
policy.
    I urge this committee to support Greg Nadeau and to move 
this nominee swiftly through the confirmation process.
    I mentioned earlier in my remarks that Greg worked for 
Senator King as his advisor on a host of issues. I am sure that 
Senator King will give you an even more detailed background 
about this outstanding nominee.
    Again, thank you for the opportunity to appear before you.
    Senator Inhofe. Thank you, Senator Collins.
    Senator King, you are recognized.

         OPENING STATEMENT OF HON. ANGUS S. KING, JR., 
              U.S. SENATOR FROM THE STATE OF MAINE

    Senator King. Thank you very much, Mr. Chairman, Ranking 
Member Boxer, and members of the committee.
    When I was elected as Governor of Maine in 1994, about a 
week after my election, literally one of the first phone calls 
I made was to Greg Nadeau. I asked him to join my office as one 
of my senior policy advisors, one of three at the time, because 
of his experience, his judgment, his integrity and his 
intelligence.
    He is a former legislator, a member of the Maine 
Legislature for 12 years, a member of our Maine Appropriations 
Committee, so he understands the legislative process and 
understands the policy process.
    For 8 years, he was my senior policy advisor in areas of 
transportation, corrections, labor and other related issues and 
proved himself to be exactly what I hoped and expected he would 
be.
    He also went on to the Maine Department of Transportation 
after I left office and thought I had left politics and worked 
as a senior policy advisor in the Maine Department of 
Transportation. He worked with his colleagues across the 
Country on transportation issues.
    Since 2009, he has been here in Washington at the 
Department of Transportation in the Federal Highway 
Administration and has really demonstrated a dedication to 
infrastructure and highway issues and a deep knowledge of how 
this works, I think importantly, not only at the Federal level, 
but at the State level, how the policies made here in 
Washington affect the States.
    He saw that in my office when I was Governor, he saw that 
as a senior official at the Maine Department of Transportation, 
so he has seen both sides of the Federal Highway 
Administration. I think that is a crucially important quality 
for someone in this very important position.
    He is a man of impeccable integrity, intelligence, judgment 
and also has what we in Maine refer to as a superb work ethic, 
the highest compliment you can pay to someone in Maine. I do 
not know if this is a familiar term here, but the highest 
compliment you can pay to someone in Maine is to say he is 
finest kind. He is the finest kind. Greg certainly fills that 
criteria.
    It is an honor for me to join Senator Collins today to 
enthusiastically commend his capabilities and his experience to 
this committee.
    Senator Inhofe. Thank you, Senator King and Senator 
Collins, both of you.
    I have to say the comments you have made are consistent 
with the comments I had just last night with a person I 
consider, and Senator Boxer knows this, our No. 1 advisor, Gary 
Ridley. He has to be a great guy with the three of you; that is 
all I can say.
    You may be excused if you have other things to do.
    Senator King. Thank you.
    Senator Collins. Thank you.
    Senator Inhofe. Senator Markey, I understand Ms. Kulinowski 
actually worked in your House office for a period of time. 
Would you like to participate in her introduction?
    Senator Markey. If I could, thank you.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Markey. Thank you very much, Mr. Chairman.
    It does give me great pleasure to introduce Dr. Kristen 
Kulinowski, a nominee for the Chemical Safety Board.
    Kristen is a highly technically qualified candidate with a 
Bachelors, Masters and Doctoral degree in Chemistry. She is a 
native of Buffalo, New York. She also has lived and worked in 
California, Texas and Washington, DC, in many academic, 
managerial and policy roles.
    I first met Kristen when she began as one of my 
congressional science and engineering Fellows. Her fellowship 
class literally started its orientation just 2 days before the 
terrorist attacks on September 11. They were in the Library of 
Congress on that terrible and chaotic morning.
    I learned later that not only did Kristen respond to the 9/
11 attacks at the Pentagon by staffing the food and water 
distribution to the exhausted emergency workers on the scene 
the next day, but she also had been a volunteer with the 
American Red Cross for many years, responding in the middle of 
the night to help people displaced from their homes by house 
fires and serving our national level disaster responses such as 
Hurricane Andrew. It is literally the case that when Dr. 
Kulinowski hears someone yell fire, she runs toward the source 
and not away from it.
    When Kristen was a Fellow in my office, one of her key 
accomplishments was in writing and successfully negotiating 
bipartisan support for a provision that was enacted into the 
Bioterrorism Act of 2002. The provisions expands from 10 to 20 
miles the radius around a nuclear power plant that people can 
get free potassium iodide to protect their thyroids from 
exposure to radioactive iodine that may be released after an 
accident or act of terrorism.
    Her ability to marshal the support for the provision and 
negotiate an acceptable outcome for stakeholders with very 
different views on nuclear safety is a testament to her ability 
to communicate the scientific facts, while making reasonable 
compromises with stakeholders on all sides of the issue.
    After leaving my office, she developed an international 
reputation as an expert in nanotechnology. To address issues of 
potential risk, she built a coalition of diverse constituents 
that included major chemical companies, environmental and 
consumer advocacy groups recognizing that a better outcome 
always results when all views are considered and incorporated.
    I, and many others, can attest to Kristen's scientific 
credentials, impartiality and collegiality. These qualities 
will serve her exceptionally well at the Chemical Safety Board. 
I give her my unqualified support and urge my colleagues to do 
the same.
    Senator Inhofe. Thank you, Senator Markey. That is an 
excellent statement.
    We are here today to do our constitutional duty to advise 
and consent to nominations. If the two of you would like to 
take your places at the table, I will do an opening statement, 
Senator Boxer will do an opening statement and then we will 
hear from you and get into the nomination process.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Mr. Greg Nadeau has been nominated to be 
Administrator of the Federal Highway Administration. Ms. 
Kulinowski has been nominated to be a member of the Chemical 
Safety and Hazard Investigation Board. I want to thank both of 
you for being here today.
    Beginning with the first nominee, Mr. Nadeau became the 
Acting Administrator of Federal Highway Administration in 
December 2013 and has been with the agency since 2009, 
previously serving as Deputy Administrator. In addition to his 
current position as Acting Administrator, he serves on the 
DOT's Freight Policy Council, providing advice on the 
development and implementation of Federal freight policy. It is 
very appropriate that ability is there since we are considering 
a bill right now that has a major freight component to it.
    Before becoming Acting Administrator, Mr. Nadeau served as 
a Senior Policy Advisor to then Governor Angus King, as you 
heard in his introduction, and then as Deputy Commissioner for 
Maine's DOT. Earlier in his career, Mr. Nadeau served in the 
Maine House of Representatives. He served as a supporter of the 
American Association of State Highway and Transportation 
Officials as well as both of his home State Senators, as you 
noted in their introduction.
    The Administrator of the Federal Highway Administration is 
an extremely important position for this committee. I look 
forward to discussing with you how we can continue to 
accelerate delivery of highway projects. It is very timely.
    The next nominee is Ms. Kristen Kulinowski. She may not be 
known quite as well to some of us but she has spent some time 
on the Hill as pointed out by Senator Markey.
    This is the second CSB nomination hearing we have had. We 
heard from Ms. Sutherland in April. We discussed with Ms. 
Sutherland that the Chemical Safety Board is a deeply troubled 
agency.
    Since our April hearing, Board Member Griffon has stepped 
down. His term ended on June 24. Board Member Engler is now the 
chief executive for the Board. Mr. Engler has taken action to 
address the mismanagement, harassment and turmoil at the CSB by 
putting Managing Director Daniel Horowitz and General Counsel 
Richard Loeb on administrative leave.
    It is important to point out these two employees were the 
subject of an investigation by the EPA Inspector General as 
well as the House Oversight and Government Reform Committee for 
harassing other employees, for using private email accounts to 
hide their plans for operating the CSB from other Board members 
and the CSB staff, for delaying CSB investigations, and 
subsequently delaying information requests from the EPA IG 
until the IG finally contacted the White House for assistance.
    It is also important to note that the mismanagement 
resulted in President Obama calling for former CSB Chairman 
Rafael Moure-Eraso's resignation in response to these 
investigations and a request from Senator Rounds and me in 
March of this year.
    It is important to the basic functioning of the CSB that as 
the investigation of Mr. Engler and the CSB begins, that it has 
the resources it needs to complete further reform of the CSB.
    I look forward to discussing these and other issues.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    We are here today to perform our Constitutional duty to 
advise the President on his nominees.
    Mr. Greg Nadeau has been nominated to be the Administrator 
of the Federal Highway Administration. Ms. Kulinowski has been 
nominated to be a member of the Chemical Safety and Hazard 
Investigation Board. I want to thank both of you for being here 
today.
    Beginning with the first nominee--Mr. Nadeau became the 
Acting Administrator of Federal Highways in December 2013 and 
has been with the agency since 2009, previously serving as 
Deputy Administrator. In addition to his current position as 
the Acting Administrator, he serves on the DOT's Freight Policy 
Council, providing advice on the development and implementation 
of Federal freight policy.
    Before becoming the Acting Administrator, Mr. Nadeau served 
as a senior policy advisor to then-Governor Angus King and then 
as the Deputy Commissioner for Maine's DOT. Earlier in his 
career, Mr. Nadeau served in the Maine House of 
Representatives. He has the support of the American Association 
of State Highway and Transportation Officials as well as both 
of his home State Senators, Senator Collins and Senator King.
    The Administrator of Federal Highways is an extremely 
important position for this Committee and I look forward to 
discussing with you how we can continue to accelerate delivery 
of highway projects.
    Now for the next nominee before us--Ms. Kulinowski may not 
be known to most of us; although I do note that she spent a 
year as a Congressional Science Policy Advisor in Senator 
Markey's office, back when he was in the House of 
Representatives.
    This is the second CSB nomination hearing we have had. We 
heard from Vanessa Sutherland in April. As we discussed with 
Ms. Sutherland, the Chemical Safety Board is a deeply troubled 
agency.
    Since our April hearing, Board Member Griffon has stepped 
down--his term ended June 24th. Board Member Engler is now the 
chief executive for the board. Mr. Engler has taken action to 
address the mismanagement, harassment, and turmoil at the CSB 
by putting Managing Director Daniel Horowitz and General 
Counsel Richard Loeb on administrative leave.
    It is important to point out, these two employees were the 
subject of an investigation by the EPA Inspector General as 
well as the House Oversight and Government Reform Committee for 
harassing other employees, for using private email accounts to 
hide their plans for operating the CSB from other board members 
and CSB staff and then subsequently delaying information 
requests from the EPA IG until the IG finally contacted the 
White House for assistance, and for delaying CSB 
investigations. It is also important that this mismanagement 
resulted in President Obama calling for former CSB chairman 
Rafael Moure-Eraso's resignation in response to these 
investigations and a request from Senator Rounds and me in 
March this year. It is important to the basic functioning of 
the CSB that the investigation Mr. Engler and the CSB began has 
the resources it needs to be completed to further reform the 
CSB.
    I look forward to discussing this development with Ms. 
Kulinowski and hearing her views on how to improve management 
of and work environment at the CSB.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you, and welcome to our two nominees.
    Mr. Chairman, as we know, the confirmation of highly 
qualified individuals to lead Federal agencies is an extremely 
important responsibility of ours and of the Senate. I think 
what we see before us is just that, two highly qualified 
individuals.
    I want to congratulate both of you on these nominations and 
also on the strong statements made on your behalf by Senators, 
including our own Senator Markey and of course, the two 
Senators from Maine.
    We know that Mr. Nadeau has been the Deputy Administrator 
for FHWA since 2009 and has carried out the duties of Acting 
Administrator for the agency since December 2013. Before 
joining FHWA, Mr. Nadeau gained valuable experience at the 
State level. We heard a lot about that in beautiful words from 
the two Senators, so I will not go through that.
    We know, if confirmed, you, sir, will be responsible for 
administration of our Nation's Federal-aid highway program. 
That is so critical. All of us on this committee, regardless of 
party, are so strongly behind a robust transportation policy.
    If confirmed, I think you will enjoy working with every 
single one of us. Honestly, if you were here to have a job at 
the EPA, I could not say that. I think it would be tougher for 
you, but when it comes to the highways, we are, in fact, very 
much together, which is important.
    I think we have here a gentleman who has been praised to 
the skies by people we respect. I hope we can move quickly.
    Of course we will also hear from Kristen Kulinowski. We 
heard a lot from Senator Markey about her character. I took 
away from you, sir, that you have a person here who you 
testified is someone who brings people together. This is 
essential in that particular agency at this particular time.
    I think in addition to all of her other work, she is an 
adjunct assistant professor at Rice University's Department of 
Chemistry. We are talking about someone who is not a 
politician, but someone who is a scientist. This is what we 
really need. That is what she did for Senator Markey. She was 
the Congressional Science Policy Fellow when he was in the 
House.
    We know the CSB investigates industrial chemical accidents 
involving fatalities, serious injuries, or substantial property 
damages and makes recommendations to industry and Federal and 
State agencies as to how we can avert similar events from 
occurring.
    Safety is the CSB's No. 1 priority. I look forward to 
hearing from Dr. Kulinowski about how she intends to meet the 
challenges ahead.
    Mr. Chairman, I feel so good about these nominees and I 
hope you do also. I hope we can move on them quickly.
    Thank you.
    [The prepared statement of Senator Boxer follows:]

                   Statement of Hon. Barbara Boxer, 
               U.S. Senator from the State of California

    Today, the Environment and Public Works Committee is 
considering two nominations--Greg Nadeau to be Administrator of 
the Federal Highway Administration (FHWA) and Kristen 
Kulinowski to be a Member of the Chemical Safety Board (CSB). 
The confirmation of highly qualified individuals to lead 
Federal agencies is an extremely important responsibility of 
the Senate. It is critical that we move forward with these 
nominations so that Federal agencies can fulfill their mission 
to serve the American people.
    Mr. Nadeau has been the Deputy Administrator for FHWA since 
2009 and has carried out the duties of Acting Administrator for 
the agency since December 2013. Before joining FHWA, Mr. Nadeau 
gained valuable experience at the State level, serving as the 
Deputy Commissioner for Policy, Planning and Communications for 
the Maine Department of Transportation for 6 years. Prior to 
that, Mr. Nadeau was the Senior Policy Advisor to then-Governor 
Angus King from 1995 to 2002 for a number of policy areas, 
including transportation, economic development, energy and 
utilities, environmental protection, and labor.
    If confirmed, Mr. Nadeau will be responsible for FHWA's 
administration of our Nation's Federal-aid highway program that 
provides funding to States and other non-Federal project 
sponsors to construct and maintain our nation's roads and 
bridges. The nation's economic security depends on a reliable 
and efficient transportation system. It is the FHWA which works 
with State and local governments to ensure that America's 
highways and bridges remain safe, technologically up-to-date, 
and environmentally friendly.
    We will also hear from Kristen Kulinowski. Since 2011, she 
has been a Research Staff Member for the congressionally 
chartered Science and Technology Policy Institute, which is 
part of the Institute for Defense Analyses. In this capacity, 
Dr. Kulinowski works on issues related to program evaluation, 
innovation policy, and disaster response. She is also an 
adjunct assistant professor at Rice University's Department of 
Chemistry. Dr. Kulinowski has worked at Rice University for 15 
years, where she has focused on engaging government, industry, 
and other stakeholders in exploring the environmental and 
health risks of engineered nanomaterial. From 2001 to 2002, she 
was a Congressional Science Policy Fellow in the office of 
then-Representative Markey. She is a member of the American 
Chemical Society and the American Industrial Hygiene 
Association-Nanotechnology Working Group. Dr. Kulinowski holds 
a Ph.D. in Chemistry.
    The CSB plays a critical role in protecting our communities 
from chemical hazards. CSB investigates industrial chemical 
accidents involving fatalities, serious injuries, or 
substantial property damages and makes recommendations to 
industry and Federal and State agencies to help prevent similar 
events.
    Safety is the CSB's No. 1 priority, and I look forward to 
hearing from Dr. Kulinowski about how she intends to meet the 
challenges ahead.
    Welcome to both of our nominees.

    Senator Inhofe. Thank you very much, Senator Boxer.
    We will proceed and start with you, Mr. Nadeau. If you will 
try to confine your remarks to 5 minutes, your entire statement 
will be made a part of the record. You are recognized.
    We are going to try to keep moving along here because we do 
have votes coming up shortly and I do not want to have to come 
back.

STATEMENT OF GREG NADEAU, NOMINATED TO BE ADMINISTRATOR OF THE 
                 FEDERAL HIGHWAY ADMINISTRATION

    Mr. Nadeau. Thank you, Chairman Inhofe, Ranking Member 
Boxer, and members of the committee, I appreciate the 
opportunity to appear before you today as you consider my 
nomination for Administrator of the Federal Highway 
Administration. I am honored to have been nominated for this 
position by President Obama with the support of Secretary Foxx.
    Serving as the FHWA Deputy Administrator since 2009 and 
carrying out all the duties of the Administrator for the last 
20 months, I am mindful of the many challenges and 
responsibilities facing the next Federal Highway Administrator.
    I appreciate the important role this committee plays in 
establishing transportation policy. Should you confirm me, I 
look forward to working with you and your staff to improve 
safety and mobility of our Nation's highways and the delivery 
of the Federal Aid Highway Program.
    I would like to extend my thanks to Senator Collins and 
Senator King for their warm introduction. Having both Senators 
from my home State appear on my behalf is truly humbling. I 
cannot sufficiently express my gratitude.
    Maine is so fortunate to have such a strong advocate for 
transportation in Senator Collins and in her role as Chair of 
our Appropriations Subcommittee and as a national leader.
    It is fair to say that serving in Senator King's 
administration while he was Governor of Maine was the 
inspiration that led to my continuing public service at the 
State and Federal levels. It has been extremely satisfying and 
rewarding for me personally and has afforded me the opportunity 
to make a contribution to my State and my Country.
    With your permission, Mr. Chairman, I would like to 
introduce my son, Nicholas, sitting behind me, currently a 
resident of Arlington, Virginia. I am happy to say he is 
gainfully employed in the construction management sector here 
in this area.
    My family has been extremely supportive of me throughout my 
27 years of State service in Maine and my 6 years of Federal 
service here in Washington. Due to the occasion of my 
daughter's wedding on Saturday, she and her mother 
understandably are unable to attend today. Nicholas and I will 
be heading home after this hearing to help prepare and 
celebrate this grand event in our family.
    Mr. Chairman and Ranking Member Boxer, holding this hearing 
in the midst of your extraordinary workload is much appreciated 
and a wonderful wedding present to my entire family. Thank you.
    I believe my extensive public service has prepared me well 
to lead the Federal Highway Administration. I would like to 
highlight today some of the key priorities if I am confirmed.
    First is safety. Fatalities and serious injuries on our 
roads are declining, but the numbers are still far too high. If 
confirmed, I will work to drive these numbers further downward, 
consistent with Secretary Foxx's embracement of the Toward Zero 
Deaths national goal.
    We will build on the data-driven, strategic approach of the 
Highway Safety Improvement Program and maintain Federal 
Highway's emphasis on safety countermeasures like Safety Edge 
and the high-friction surface treatments that could be deployed 
system-wide at a low cost and yield significant safety gains.
    If confirmed, I will prioritize and lead FHWA into the next 
authorization period. As members of this committee, there is no 
doubt you are all quite familiar with the cost of inadequate 
and delayed infrastructure investment. Among them is the 
decline in the condition of our Nation's roads and bridges and 
their ability to handle current and future traffic demands, 
safety impacts, increased shipping delays and higher prices on 
every day products, and uncertainty for State and local project 
sponsors. With the DRIVE Act, you are leading the charge in 
Congress to long-term authorization to help address these 
issues in a bipartisan way.
    As you know, President Obama has also put forward a 
proposal called the Grow America Act. If confirmed, I will work 
with you to help provide highway infrastructure the bold 
investment it needs.
    Next, considering the budget constraints at all levels of 
government, we must deliver the best value for every taxpayer 
dollar. This committee provided many tools toward this end in 
MAP	21. The Grow America Act seeks to build on that foundation.
    Additionally, Federal Highway's EDC innovation partnership 
with the States is helping shorten project delivery through 
deployment of process innovations and the increased use of 
technology with the result of States and local agencies saving 
time and money that could be directed to additional projects. I 
believe we enhance the environmental income through efficiency.
    I have been fortunate to have led Federal Highway's efforts 
to carry out EDC and if confirmed, I look forward to taking EDC 
to the next level in partnership with States and locals to 
deliver the highway program of the future. The resources and 
tools provided under MAP	21 and targeted toward accelerating 
project delivery have already had an impact across the Country. 
This unique Federal, State and local partnership personifies 
the smart government approach.
    The proposed codification of EDC in the DRIVE Act will 
serve as a catalyst in encouraging our stakeholders to maximize 
our collective efforts to improve safety and project delivery 
efficiency through innovation.
    Mr. Chairman, recognizing the many demands on our time, I 
very much appreciate the opportunity you and the entire 
committee have provided to testify here today in consideration 
of my nomination as Federal Highway Administrator.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Nadeau follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Thank you, Mr. Nadeau, for an excellent 
statement.
    Dr. Kulinowski.

 STATEMENT OF KRISTEN KULINOWSKI, NOMINATED TO BE A MEMBER OF 
                   THE CHEMICAL SAFETY BOARD

    Ms. Kulinowski. Thank you, Chairman Inhofe, Ranking Member 
Boxer, and distinguished members of the committee. I am honored 
to have been nominated by President Obama to be a member of the 
Chemical Safety Board.
    I am joined here today physically and virtually by my 
family, friends and colleagues who have supported and inspired 
me throughout my career, including my husband and daughters.
    Senator Inhofe. Have your daughters stand.
    Ms. Kulinowski. They are Kiara and Cleo.
    This nomination is the culmination of two decades of 
professional experience in academia and public policy. I am 
currently employed at the Institute for Defense Analyses 
Science and Technology Policy Institute, a federally funded 
research center that performs objective analysis of national 
science and technology policy in support of the White House 
Office of Science and Technology Policy and other Federal 
executive agencies.
    In the last 4 years, I have worked on a diverse set of 
topics including program evaluation, innovation policy, and 
disaster response.
    While my portfolio in my current job has been broad, first 
and foremost, I am a chemist. I hold a BS in chemistry with 
Honors from Canisius College and MS and Ph.D. degrees in 
chemistry from the University of Rochester. After earning my 
doctorate, I held faculty appointments at Cal Poly and Rice 
University before coming to Washington, DC, in September 2001 
as a Congressional Science and Technology Policy Fellow.
    As Senator Markey mentioned, on 9/11 my fellowship cohort 
was in orientation when word came about the attacks on our 
Country. Later that day, I went to the Pentagon as a volunteer 
with the American Red Cross to serve emergency workers 
responding to the attack.
    This experience shaped my decision to accept a fellowship 
placement in then-Congressman Markey's office where I staffed 
the Bipartisan Task Force on Nonproliferation. My time on Mr. 
Markey's staff gave me insight into the impact that a 
bipartisan policy process can have when people work together to 
achieve a common goal.
    After my fellowship, I returned to Rice University to join 
the Center for Biological and Environmental Nanotechnology, 
where I served as Executive Director. My research focused on 
the environmental, health, and safety implications of 
engineered nanomaterials. This part of my background is 
particularly relevant to the activities of the Chemical Safety 
Board because it is where I earned my experience with worker 
health and safety.
    When I began my appointment in the center, nanotechnology 
was a fledging field full of promise. But there were concerns 
that the novel chemical and physical properties of 
nanomaterials could lead to unwanted interactions with people 
and the environment.
    Absent any specific guidance governing nanomaterials, many 
companies were concerned about investing resources into 
developing products without regulatory or market certainty. My 
policy experience afforded me the ability to help focus our 
center's efforts on evaluating the potential risks associated 
with the manufacturing and use of nanomaterials while few 
others were actively engaging in research on this topic.
    At the urging of our industrial affiliates, our center 
created the International Council on Nanotechnology, ICON, a 
multi-stakeholder coalition dedicated to investigating and 
communicating nanomaterials' potential risks. Under my 
leadership as director, ICON created a neutral space where 
people from companies, environmental and consumer advocacy 
groups, government agencies, labor unions, and universities 
could explore the limited but growing body of scientific 
evidence about nanomaterial risk.
    Governance was shared amongst the stakeholder groups, 
ensuring that no one sector would dominate the agenda, and 
high-quality fact-based evidence was prized above all else. 
ICON's work products continue to have impact in the community 
and our innovative model for stakeholder engagement remains an 
example of what multi-stakeholder collaboration can achieve.
    Although I am proud of what ICON achieved, creating an 
environment where stakeholders could have frank and honest 
discussions around sensitive issues was not a trivial task. It 
took time and effort to gain the trust of these disparate 
groups and to foster trust among them.
    As Director of ICON, I learned much about working across 
diverse groups, which I believe will serve me well as a member 
of the CSB. It also sensitized me to the challenges of 
promoting safe and healthy workplaces for all Americans.
    Workers are on the front lines of industrial processes and 
have high potential exposure to the risks of these processes. 
Fortunately, risks to U.S. workers from nanomaterial production 
have yet to manifest and, hopefully, they never will.
    My experience exploring these issues brought me into 
contact with a larger community of people interested in making 
workplaces safer. As a result, I have partnered with NIOSH, 
OSHA, and NIEHS on projects directly related to worker 
protection.
    The knowledge that many major industrial accidents could 
have been prevented drives me to continue my work in the area 
of industrial health and safety. The CSB is a small agency with 
a large and important mission: to investigate the root causes 
of major industrial accidents that have adversely impacted 
workers or the surrounding community.
    I appreciate that the CSB is dedicated to using facts and 
evidence to determine the causes of industrial accidents and 
avoids approaching investigations with preconceived notions 
about the outcome. That is the approach that I adopted when 
working on nanoparticle health and safety and it governs how I 
perform my analyses in my current job.
    The CSB's rigorous, technical analyses provide a solid 
foundation for making recommendations to industry, labor, and 
local, State and Federal agencies for changes that can help 
prevent accidents from happening in the future.
    I am honored and excited to be considered for a position on 
the Chemical Safety Board. If confirmed, I will draw on my 
technical skills, experience with stakeholder engagement, and 
scientific dispassion to work toward the shared goal of 
ensuring that every American industrial worker goes home at the 
end of his or her shift.
    Thank you for the opportunity to share my qualifications 
with you and for your consideration of my nomination.
    [The prepared statement of Ms. Kulinowski follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Thank you, Dr. Kulinowski.
    We have our three questions that I must ask you. I would 
ask each one of you to respond vocally to the questions.
    Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee and other 
appropriate committees, to provide information subject to 
appropriate and necessary security protection with respect to 
your responsibilities?
    Mr. Nadeau. Yes.
    Ms. Kulinowski. I do.
    Senator Inhofe. Do you agree to ensure that testimony, 
briefings and documents in electronic and other forms of 
communication of information are provided to this committee, 
its staff and other appropriate committees in a timely manner?
    Ms. Kulinowski. I do.
    Mr. Nadeau. Yes.
    Senator Inhofe. Last, do you know of any matters which you 
may or may not have disclosed that might place you in a 
conflict of interest if you are confirmed?
    Ms. Kulinowski. No, sir.
    Mr. Nadeau. No, sir.
    Senator Inhofe. Thank you.
    I have one question for you, Mr. Nadeau. Right now, as I 
stated in my opening remarks, this is a very appropriate time 
to have you come forth in your particular position. As you 
know, the last bill we had was in 2005 when we had a 5-year 
bill which worked very, very well. We are reaping the rewards 
of that right now.
    However, after that, we went through a 9-year period of 
short term extensions. Our mutual friend, Gary Ridley, 
calculated it cost about 30 percent more to do it that way, so 
I tell my Republican friends that the real conservative 
position is a long term highway authorization bill.
    I would like to ask you what would happen if we are unable 
to get the long term bill as opposed to a short term bill and 
looking also at the $185 billion backlog we have and some of 
the large projects that are out there. What would be the 
result?
    Mr. Nadeau. Mr. Chairman, it is really a cascading effect. 
There are multiple impacts at the very early stages. The 
uncertainty that is created in the absence of a long term 
funding solution and a long term bill introduces tremendous 
inefficiencies to the manner in which you put a long term 
capital program together.
    Reflecting on my own experience as a Deputy Commissioner 
for Policy and Planning in the Maine DOT, we had a biannual 
budget and basically a 6-year transportation plan. You put a 
capital program together by looking out multiple years.
    It could be projects that will take multiple years to 
deliver, which obviously is very difficult to obligate and 
commit to if you do not know what your long term funding 
sources are going to be or what level that funding source will 
yield for your program. It affects, at the beginning, the 
ability to commit to projects. Secretary Ridley is obviously 
referring to is that uncertainty creates tremendous 
inefficiencies in project delivery in a number of ways.
    The inability to know the extent of the project or at what 
levels obviously impacts us. We are obviously facing another 
deadline at the end of the month that has more immediate 
concerns as this committee very well knows.
    A 6-year bill at elevated funding levels, which introduces 
certainty to project sponsors, introduces the possibility of 
their having a much more efficient approach to project 
delivery. Before you build one bridge, you are going to need to 
know the extent to which the approaches to that bridge are 
going to be a part of a project that may be done in different 
segments.
    It does introduce inefficiencies, Mr. Chairman. That is a 
consequence of the uncertainty.
    Senator Inhofe. Yes, well said.
    Dr. Kulinowski, in my opening statement, I talked about the 
mismanagement, the harassment and things that are taking place 
there now. The investigation is ongoing. I would ask, if you 
are confirmed, will you commit to ensuring that this 
investigation continues unimpeded and has the resources that 
are required to conclude it?
    Ms. Kulinowski. I respect there is a process currently 
underway to investigate potential misconduct amongst CSB 
employees. As I am on the outside, I have not been made privy 
to the details and facts underlying this investigation. As a 
result, I see no reason why today I would take a position to 
stop an ongoing investigation from going forward.
    Senator Inhofe. That is very reasonable. The CSB has been 
criticized for advocating for things like inherently safer 
chemicals in the European safety case standard instead of 
investigating the causes of accidents and making 
recommendations based on the evidence.
    How do you see your role in addressing these issues?
    Ms. Kulinowski. First, I note that the CSB is not a 
regulatory agency. However, it is within its purview to make 
recommendations to regulatory agencies and others when its 
investigations conclude that changes are necessary to prevent 
future accidents.
    However, if confirmed, I will come into the CSB with the 
mindset of taking each accident investigation on a case-by-case 
basis. I understand the safety case is used abroad in some 
other countries.
    Before I was comfortable recommending abroad change to 
existing U.S. regulatory frameworks, I would think the CSB 
should engage a stakeholder engagement and consultation effort 
that brought in those experiences so we can learn from them and 
also engage extensively with the U.S. stakeholder community 
before moving forward with that.
    Senator Inhofe. Thank you, Dr. Kulinowski.
    We are going to have a 5-minute round and try to get 
through in time for our votes that are coming up in a few 
minutes.
    Senator Boxer.
    Senator Boxer. Thank you so much.
    I do not have any questions. I am a very strong supporter 
of these nominees. I feel I know enough to believe strongly 
that they are qualified and will be excellent additions.
    I would like to ask unanimous consent to place in the 
record letters of support for Kristen Kulinowski from the 
American Industrial Hygiene Association; the American Stamp of 
Business Council; 21 non-profit organizations; John Baker, 
former Deputy Director for the Center of Biological Environment 
and Nanotechnology at Rice University; and W. Mark Lafranconi, 
former colleague in establishing the International Council on 
Nanotechnology.
    Senator Inhofe. Without objection.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. For Mr. Nadeau, AASHTO, a great 
organization, has written a letter; the American Society of 
Civil Engineers; and the American Highway Users Alliance, three 
incredibly important organizations with which we have worked in 
terms of getting a bill.
    Senator Inhofe. Without objection.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. With that, I hope it goes well.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Mr. Nadeau, I want to extend my sincere thanks for the time 
and attention you have given to my home State of Nebraska, 
including your visit there last year and for your work on 
strengthening that partnership we have between the Federal 
Highway Administration and the Nebraska Department of Roads.
    I appreciate your commitment to ensuring we are working 
together to streamline those environmental reviews and 
accelerate project delivery. You and I both understand the 
challenges we face in finding funding to devote to important 
infrastructure projects.
    When we fight so hard to find that money, it is very, very 
frustrating to see any of it wasted on excessive paperwork. 
Those requirements do not really do anything to improve the 
environmental process or the outcomes we have.
    We have struggled with this for some time in Nebraska, as 
you know. I am very pleased that Federal Highway and DOR have 
made progress in reducing the duration of the NEPA process and 
reducing project delivery times while we still ensure the 
Federal aid projects in Nebraska are delivered in compliance 
with all Federal laws.
    Should you be confirmed, will you commit to working with 
State highway agencies to reduce and eliminate the cumbersome, 
bureaucratic red tape that we see sometimes and expedite the 
surface transportation projects?
    Mr. Nadeau. Thank you, for the question, Senator Fischer, 
and your role in helping to facilitate the work that Federal 
Highway and our team has done with NDOR. It has yielded some 
very productive results in our project delivery efficiency 
initiative. I absolutely certainly would commit to the 
continuing effort with our partners at NDOR and Nebraska and 
the new leadership there. The Every Day Counts Initiative that 
I referenced earlier really is a national partnership.
    Each State, D.C. and Puerto Rico have implemented 
innovation initiatives as a result of this partnership. When we 
first announced this back when now Deputy Secretary Mendez was 
Administrator, AASHTO was our principal partner and had to be.
    We do not deliver the projects. State DOTs and local 
transportation agencies do. Their willingness in partnership 
and implementing innovation is essential. The partnership we 
have formed, the commitment our partners have made to a culture 
of innovation aimed at streamlining project delivery obviously 
is important to taxpayers; efficient and effective 
environmental protection; and certainly important in terms of 
the precious resources you are all working so hard to find.
    I absolutely will commit to that and would describe it as a 
passion of mine.
    Senator Fischer. It is a passion of mine as well. I 
certainly appreciate your commitment to continuing to move 
forward with those steps that are helpful for all of us.
    As you know from our meeting last week, getting Nebraska 
the authority to process those categorical exclusions which go 
a long way to helping us get projects moving in the State. I 
know we have that agreement in place for State authority over 
the lower level CEs but that does not help our larger cities 
like Omaha and Lincoln.
    Will you continue to work with Nebraska so we can be 
enabled to have that authority over all the CEs that are out 
there?
    Mr. Nadeau. It is an ongoing effort and I absolutely will 
commit to that.
    Senator Fischer. Thank you. When we met last week, you 
stated efficiency and project delivery is your No. 1 focus. 
What are some of the specific actions you think Federal Highway 
and State partners can take to become more efficient in 
delivering those services?
    Mr. Nadeau. We are continuing our efforts with the States, 
MPOs and local transportation agencies to implement the 
provisions of MAP-21. We acted fairly quickly on a number of 
the accelerated project delivery provisions specifically.
    Certainly a long term bill with significant increases in 
funding toward our Nation's infrastructure, establishing that 
predictability and reliability, is one way and probably the 
most important way, to some degree, of introducing the ability 
to be efficient in how we deliver the capital program as I 
discussed with Chairman Inhofe earlier.
    Our job as the Federal Highway Administration with our 
partners in the States and the transportation professionals, my 
favorite Lincoln quote is if you had 8 hours to chop down a 
tree, he would spend the first 6 hours sharpening his ax, and 
we are sharpening our ax.
    We are working hard to ensure that our systems, our 
policies, and the types of policies inherent in MAP-21 are 
efficiently administered and that we are getting every bang for 
our buck.
    That certainly is something I am committed to. I think we 
can talk more about specific provisions and ideas we have 
deployed over the last several years.
    Senator Fischer. Thank you, sir. I look forward to 
continuing to work with you on these very important issues.
    Mr. Nadeau. Thank you for your support, Senator.
    Senator Inhofe. Thank you, Senator Fischer.1Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    I do not have any questions. These are two outstanding 
candidates and I think they are going to serve our Country 
extremely well.
    I thank you for conducting this hearing.
    Senator Inhofe. Thank you, Senator Markey. Thank you also 
for that excellent introduction.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Thank you all for being with us.
    Mr. Nadeau, Scott Bennett sends his regards, our highway 
commissioner, who very much enjoys working with you. I think 
your son should be very pleased to recognize the fact that you 
have a very good reputation in your chosen field.
    I would like to mention a couple things that pertain to 
Arkansas. First, our Arkansas division administrator has 
departed and we would like to work to expeditiously see if we 
can fill that as soon as possible. I know you will give us 
someone who is very well qualified and will do a great job, as 
always.
    Second, you will receive a letter concerning the I-55 
closure of the old bridge. That might not be something on your 
screen right now but it pertains to a 9-month closure the 
people of Arkansas are feeling might be very difficult. Just 
look for that.
    The only other thing I would ask about is the TIGER grants, 
one of the things I would like for you to perhaps look into. In 
many Federal situations where you do not get a grant, there is 
feedback as to why you did not get it. That helps the person 
applying to look at the criteria and see how they can meet that 
and do a better job.
    Again, I would ask that you look at that to see if perhaps 
you could help in that regard.
    Mr. Nadeau. I would be happy to follow up on all of those 
suggestions. You are right, Sandy was one of the best division 
administrators we had. She was promoted and we committed to 
Scott personally that we will find someone of equal capability.
    Senator Boozman. Good. We are looking forward to that.
    Dr. Kulinowski, thank you for your willingness to serve. At 
some point, I would love to visit with you about nanotechnology 
and how the periodic table does not work, those very small 
extremes, the potential there and the challenges.
    Again, thank you very much for being here.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Boozman.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you, witnesses, for being here today.
    Mr. Nadeau, I agree with you that Congress needs to pass a 
long-term reauthorization bill that is adequately funded and 
allows for State and local governments to plan for the future 
and obviously put people back to work.
    This is essential for our economy, for highway safety and 
efficiency. I hope we will be able to come to an agreement soon 
or provide long term funding certainty for our constituents.
    I have three questions. I appreciate the focus you placed 
in your testimony today on improving safety for all road users. 
New York, as you know, has some of the busiest and most 
dangerous streets in the Country. Pedestrian safety is an issue 
that weighs heavily on my mind. The most recent statistics from 
the New York State Department of Motor Vehicles finds there 
were 16,000 crashes involving pedestrians and motor vehicles in 
2013, 343 of which were fatal.
    If confirmed, how do you plan to address pedestrian safety 
as well as safety for bicycles and all other road users? Will 
you work to assure that we are taking pedestrians into account 
during the transportation planning process?
    Mr. Nadeau. Bike safety is one of Secretary Foxx's top 
safety priorities. Federal Highway has been recruited by the 
Secretary to contribute in a number of ways to an overall 
department effort to support and assist State and local 
agencies in effectuating a number of strategies.
    We have produced bike-ped assessment guides, we provide 
direct training to agencies on how to implement those. We have 
conducted research and are conducting ongoing research to 
improve design features and are working with agencies on how to 
implement those. Bike-ped accommodation has become widespread. 
Bicycling has grown in popularity. Many communities are 
interested in developing infrastructure that can safely 
accommodate it as part of their community.
    We are also working with States to ensure that design 
professionals are incorporating the flexibilities they have 
under current guidelines to utilize many of the design 
strategies that have been developed after years of research and 
practice. It is something that Federal Highway is very 
committed to, is extremely involved in and is working with the 
Secretary and the Mayors challenge to work with cities to 
institute new and exciting opportunities to accommodate it 
safely.
    As we deal with highway infrastructure development and 
rehabilitation to deal with increasing demands on the system, 
we need to be cognizant of the impact on communities and design 
our solutions to accommodate quality of life as well. We are 
very involved and engaged and committed.
    Senator Gillibrand. My second issue is, as you aware, on 
February 3, there was a tragic crash between Metro-North 
commuter rail and a vehicle at the highway rail grade crossing 
which resulted in multiple deaths and injuries. Additionally, 
there has been heightened concern about the safety of highway 
rail grade crossings given the increased shipments of crude oil 
by rail through New York communities.
    What is FHWA doing to address the safety concerns at 
highway rail crossings? Will you work with States and 
localities to improve them?
    Mr. Nadeau. Through our Section 130 Program, about $220 
million a year is devoted to investment in rail grade crossings 
and working with States on an ongoing basis to incorporate it 
into their highway and safety improvement planning process.
    Acting Administrator Sarah Feinberg of FRA and I have 
spoken often. We have jointly written to the States to offer 
our support and assistance in expanding possible remedies 
beyond Section 130.
    A big part of our emphasis is helping travelers understand 
the dangers. Obviously our hearts go out to the families and 
friends of those affected certainly in New York and across the 
Country. We have to be vigilant in supporting our States and 
local partners.
    Senator Gillibrand. Thank you.
    My last issue is, I sit on the Agriculture Committee. We 
have had a real challenge with pollinators, particularly bees 
with Colony Collapse Disorder. There is a simple solution that 
relates to you for which I would like your support.
    I offered an amendment that passed called the DRIVE Act 
which uses highway rights-of-way to address the pollinator 
crisis by encouraging the DOT to plant native vegetation along 
the highways, not grass every week but to actually let plants 
and flowers thrive. It is a win-win because it costs less to 
maintain and helps our pollinators. Will you work with me on 
that issue?
    Mr. Nadeau. I would absolutely commit to doing that. It is 
a White House priority, a very serious issue and I think we can 
be very effective in helping to support your efforts.
    Senator Gillibrand. Thank you.
    Senator Inhofe. Thank you, Senator Gillibrand.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank both of you for being here. I am sorry I missed your 
testimony but I have a good idea of what you said and the great 
talents that you bring to these positions.
    I want to start with Dr. Kulinowski. We have a vibrant 
chemical industry in West Virginia, particularly where I live 
in the Canaan Valley. We have major companies and a great 
history with the companies in conjunction with our communities 
as well.
    We have accidents which, unfortunately, are part of what 
happens. Recently, we had one several years ago at a bare site 
that resulted in fatalities. The Chemical Safety Board came in 
and worked with the community to try to reassure them and to 
help with the reassure along with the companies and other local 
responders, that there were some problems with the response and 
to make sure they were living in a safe community.
    I would like to know where you feel your responsibility is 
in working with local responders and companies in the various 
communities around the Country. They are all different. Some 
are more congested than others and others have better exits and 
all those kinds of things.
    How do you formulate that with the local responders, the 
county commissions and so forth?
    Ms. Kulinowski. When I was director of the International 
Council on Nanotechnology, I specialized in bringing together 
groups of people and communicating complex technical issues to 
them in a way that was easily understood.
    I have a lot of experience with stakeholder engagement. 
That is an aspect of being a member of the Chemical Safety 
Board about which I am particularly excited in the array of 
responsibilities that I will have if confirmed.
    It would be my perspective that members of the Board should 
be present in the community, should make themselves available 
to members of the community, and should be helping the 
community members understand what the CSB is doing along 
various points in the investigation, but also to listen to them 
to understand their concerns and to learn from them.
    We are not familiar with the community and we are not 
familiar with the particulars of these various sites as you 
mentioned which are diverse in different communities. It is a 
two-way communication between the Board and the members of the 
community.
    I am fully committed to actively participating in that 
stakeholder engagement if confirmed.
    Senator Capito. I think that would be very wise. I notice 
that Vanessa Sutherland, who was under consideration as well, 
mentioned in her testimony that she would like to see expanded 
participation by the Chemical Safety Board in the local 
communities.
    I am going to shift over to Mr. Nadeau. Thank you for 
coming to see me.
    I wanted to ask you a question, and I am sure it is the 
same in other States. In West Virginia, we have 960 bridges 
that structurally deficient or graded as such. Can you 
elaborate on the accelerated bridge construction process and 
how you think that might help States such as ours?
    Mr. Nadeau. Thank you very much for your time, Senator, and 
for the question.
    The accelerated bridge construction is really becoming a 
discipline and by every day accounts of round one, it was 
really very much a staple in our area of focus. There are a 
number of bridge technologies that have been utilized by the 
States and their use has been expanded as States utilize 
certain practices.
    An example is slide-in bridge technology where you 
literally are building a bridge to the side over a period of 
months and then moving it in over a weekend. That type of 
practice is growing in popularity because in certain 
circumstances where you have heavy volumes of traffic, it 
minimizes the impact on commerce and the obvious impact on 
communities.
    Senator Capito. Let me ask you quickly because I am going 
to run out of time. The number of bridges is 960, a large 
number for a small State. We have a lot of hills and valleys as 
we know.
    Would you say this is the status of most of a lot of the 
bridges around the Country in all the various other States? Is 
everyone having the same problem?
    Mr. Nadeau. The percentage of bridges that are structurally 
deficient is unacceptable. At the current rate of investment, 
it will take 26 years to address the inventory of bridges rated 
as structurally defsicient today. Obviously, over that 26 
years, bridges that are currently not at that level will 
degrade.
    It goes back to the conversation we had earlier with the 
Chairman. A higher level of investment is needed in order to 
reverse that trend. It is not unique to West Virginia. All 
States, I think, are facing similar challenges.
    Senator Capito. Thank you both.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Capito.
    When you talk about how many years it would be, how many 
years would it be if we are unable to get a long term 
reauthorization bill now? It would extend it, right?
    Mr. Nadeau. To put it simply, sir, it would not help. 
Again, we fail to meet the level of investments that are 
required today in infrastructure that is at a certain state, 
remaining infrastructure will degrade. It is sort of a vicious 
cycle. The average age of bridges in this Country is 42 years 
old and aging rapidly.
    Senator Inhofe. In our State, that is the case.
    I thank both of you not just for your attendance this 
morning but also for your willingness to extend your public 
service. We are adjourned.
    [Whereupon, at 10:26 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
